          EVALUATION REPORT

                   Inspector General’s Assessment of the
                 Most Serious Management and Performance
                           Challenges Facing NRC

                      OIG-09-A-21 September 30, 2009




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                             UNITED STATES
                     NUCLEAR REGULATORY COMMISSION
                             WASHINGTON, D.C. 20555-0001




OFFICE OF THE
INSPECTOR GENERAL


                                          September 30, 2009



MEMORANDUM TO:             Chairman Jaczko



FROM:                      Hubert T. Bell /RA/
                           Inspector General


SUBJECT:                   INSPECTOR GENERAL’S ASSESSMENT OF THE MOST
                           SERIOUS MANAGEMENT AND PERFORMANCE
                           CHALLENGES FACING NRC (OIG-09-A-21)

The Reports Consolidation Act of 2000 requires the Inspector General of each Federal
agency to annually summarize what he or she considers to be the most serious
management and performance challenges facing the agency and to assess the
agency’s progress in addressing those challenges. In compliance with the act,
I identified seven management and performance challenges confronting the Nuclear
Regulatory Commission that I consider to be the most serious.

Each of the seven challenges identified this year also appeared on my 2008 list. The
single difference between the 2008 and 2009 lists is that the new list excludes prior
challenge 3, Implementation of a risk-informed and performance-based regulatory
approach. This challenge was included in my first list of challenges, issued to
Congress in January 1998, and remained on the list each year since, with slight
variations in wording. I removed the challenge from my list this year because the risk-
informed and performance-based regulatory approach is now mature and reflected
throughout the agency’s regulatory framework.

We appreciate the cooperation extended to us during this evaluation. The agency
provided comments on this report, which have been incorporated as appropriate. If
you have any questions, please contact Stephen D. Dingbaum, Assistant Inspector
General for Audits, at 415-5915 or me at 415-5930.

Attachment: As stated
Electronic Distribution

Edwin M. Hackett, Executive Director, Advisory Committee on Reactor
 Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Jr., Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Bruce S. Mallett, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Corporate Management
 and Chief Information Officer, OEDO
Vonna L. Ordaz, Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Patrick D. Howard, Director, Computer Security Officer
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
Luis A. Reyes, Regional Administrator, Region II
Mark A. Satorius, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
          Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




EXECUTIVE SUMMARY

        BACKGROUND

                The Reports Consolidation Act of 2000 requires the Inspector
                General (IG) of each Federal agency to annually summarize what
                he or she considers to be the most serious management and
                performance challenges facing the agency and to assess the
                agency’s progress in addressing those challenges.

        PURPOSE

                In accordance with the act, the IG at the U.S. Nuclear Regulatory
                Commission (NRC) updated what he considers to be the most
                serious management and performance challenges facing NRC.
                The IG evaluated the overall work of the Office of the Inspector
                General (OIG), the OIG staff’s general knowledge of agency
                operations, and other relevant information to develop and update
                his list of management and performance challenges. As part of the
                evaluation, OIG staff sought input from NRC’s Chairman,
                Commissioners, and management to obtain their views on what
                challenges the agency is facing and what efforts the agency has
                taken to address previously identified management challenges.

        RESULTS IN BRIEF

                The IG identified seven challenges that he considers the most serious
                management and performance challenges facing NRC. The challenges
                identified represent critical areas or difficult tasks that warrant high-level
                management attention.

                The 2009 list of challenges reflects one change from the 2008 list:

                         Prior challenge 3, Implementation of a risk-informed and
                          performance-based regulatory approach, was removed as a
                          standalone challenge. This challenge was included in the IG’s
                          first list of management challenges, issued to Congress in
                          January 1998,1 and has remained on the list each year since, with
                          slight variations in wording. Although this regulatory approach –
                          which incorporates risk analysis into regulatory decisions so that
                          NRC and licensee attention can be focused on areas of highest
1
  In December 1997, prior to the Reports Consolidation Act of 2000, Congressman Armey
requested that Inspectors General independently identify the 10 most serious management
problems in their respective agencies to help Congress target key problem areas for attention.
NRC’s IG complied with the request in January 1998. For subsequent lists, congressional
members changed the word “problems” to “challenges.” The Reports Consolidation Act of 2000
made this an annual reporting requirement for Federal Inspectors General.


                                                     i
       Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                       risk – is expected to continue evolving in the years ahead, the
                       approach is now mature and reflected throughout the agency’s
                       regulatory framework. Therefore, the IG removed the challenge
                       from the 2009 list and, instead, addresses the issue in narrative
                       about the other challenges, as appropriate.

                       The chart that follows provides an overview of the seven
                       most serious management and performance challenges as
                       of September 30, 2009.

         Most Serious Management and Performance Challenges
              Facing the Nuclear Regulatory Commission *
                        as of September 30, 2009
                 (as identified by the Inspector General)

Challenge 1        Protection of nuclear material used for civilian purposes.

Challenge 2        Managing information to balance security with openness and
                   accountability.

Challenge 3        Ability to modify regulatory processes to meet a changing
                   environment, to include the licensing of new nuclear facilities.

Challenge 4        Oversight of radiological waste.

Challenge 5        Implementation of information technology and information
                   security measures.

Challenge 6        Administration of all aspects of financial management.

Challenge 7        Managing human capital.


*The most serious management and performance challenges are not
ranked in any order of importance.



     CONCLUSION

              The seven challenges contained in this report are distinct, yet
              interdependent relative to the accomplishment of NRC’s mission.
              For example, the challenge of managing human capital affects all
              other management and performance challenges.




                                                  ii
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



      The agency’s continued progress in taking actions to address the
      challenges presented should facilitate achieving the agency’s
      mission and goals.




                                          iii
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




                       [Page intentionally left blank.]




                                          iv
    Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




ABBREVIATIONS AND ACRONYMS

          CFR                Code of Federal Regulations

          CIP                Construction Inspection Program

          COL                combined operating license

          CUI                controlled unclassified information

          FAIMIS             Financial Accounting and Integrated Management
                             Information System

          FOIA               Freedom of Information Act

          FY                 Fiscal Year

          IG                 Inspector General

          IT                 information technology

          ITAAC              inspections, tests, analyses, and acceptance criteria

          MC&A               material control and accounting

          NMMSS              Nuclear Materials Management and Safeguards
                             System

          NRC                U.S. Nuclear Regulatory Commission

          NSTS               National Source Tracking System

          OIG                Office of the Inspector General

          ROP                Reactor Oversight Process

          T&L                Time and Labor




                                               v
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




                       [Page intentionally left blank.]




                                          vi
         Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




TABLE OF CONTENTS

    EXECUTIVE SUMMARY.........................................................................i

    ABBREVIATIONS AND ACRONYMS ....................................................v

    I.       BACKGROUND .............................................................................1

    II.      PURPOSE......................................................................................1

    III.     EVALUATION RESULTS ...............................................................1

    Challenge 1            Protection of nuclear material used for civilian
                           purposes ........................................................................5

    Challenge 2            Managing information to balance security with
                           openness and accountability..........................................9

    Challenge 3            Ability to modify regulatory processes to meet a
                           changing environment, to include the licensing
                           of new nuclear facilities ................................................13

    Challenge 4            Oversight of radiological waste ....................................17

    Challenge 5            Implementation of information technology and
                           information security measures .....................................19

    Challenge 6            Administration of all aspects of financial
                           management ................................................................21

    Challenge 7            Managing human capital ..............................................25

    IV. CONCLUSION................................................................................28

    APPENDIX

    SCOPE AND METHODOLOGY...........................................................29




                                                    vii
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




                       [Page intentionally left blank.]




                                          viii
        Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




I.     BACKGROUND

              On January 24, 2000, Congress enacted the Reports Consolidation
              Act of 2000, requiring Federal agencies to provide financial and
              performance management information in a more meaningful and
              useful format for Congress, the President, and the public. The act
              requires the IG of each Federal agency to annually summarize
              what he or she considers to be the most serious management and
              performance challenges facing the agency and to assess the
              agency’s progress in addressing those challenges.


II.    PURPOSE

              In accordance with the act’s provisions, the NRC IG updated what
              he considers to be the most serious management and performance
              challenges facing the agency. The IG evaluated the overall work of
              OIG, the OIG staff’s general knowledge of agency operations, and
              other relevant information to develop and update his list of
              management and performance challenges.

              In addition, OIG sought input from NRC’s Chairman,
              Commissioners, and management to obtain their views on what
              challenges the agency is facing and what efforts the agency has
              taken or planned to address previously identified management and
              performance challenges.


III.   EVALUATION RESULTS

              The NRC’s mission is to regulate the Nation’s civilian use of
              byproduct, source, and special nuclear materials to ensure
              adequate protection of public health and safety, promote the
              common defense and security, and protect the environment. Like
              other Federal agencies, NRC faces management and performance
              challenges in carrying out its mission.

              Determination of Management and Performance Challenges

              Congress left the determination and threshold of what constitutes a
              most serious management and performance challenge to the
              discretion of the Inspectors General. As a result, the IG applied the
              following definition in identifying challenges:



                                                  1
        Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




Serious management and performance challenges are mission critical areas or
programs that have the potential for a perennial weakness or vulnerability that,
without substantial management attention, would seriously impact agency
operations or strategic goals.

              Based on this definition, in 2009, the IG revised his list of the most
              serious management and performance challenges facing NRC.
              The challenges identify critical areas or difficult tasks that warrant
              high-level management attention. The following chart provides an
              overview of the seven management challenges. The sections that
              follow the chart provide more detailed descriptions of the
              challenges, descriptive examples related to the challenges, and
              examples of efforts that the agency has taken or are underway to
              address the challenges.

          Most Serious Management and Performance Challenges
               Facing the Nuclear Regulatory Commission *
                         as of September 30, 2009
                  (as identified by the Inspector General)

Challenge 1         Protection of nuclear material used for civilian purposes.

Challenge 2         Managing information to balance security with openness and
                    accountability.

Challenge 3         Ability to modify regulatory processes to meet a changing
                    environment, to include the licensing of new nuclear facilities.

Challenge 4         Oversight of radiological waste.

Challenge 5         Implementation of information technology and information
                    security measures.

Challenge 6         Administration of all aspects of financial management.

Challenge 7         Managing human capital.


*The most serious management and performance challenges are not
ranked in any order of importance.




                                                  2
          Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



       Changes to Management Challenges

                The IG identified seven challenges that he considers the most serious
                management and performance challenges facing NRC. The challenges
                identify critical areas or difficult tasks that warrant high-level
                management attention.

                This year’s list of challenges reflects one change from last year’s list:

                         Prior challenge 3, Implementation of a risk-informed and
                          performance-based regulatory approach, was removed as a
                          standalone challenge. This challenge was included in the IG’s
                          first list of management challenges, issued to Congress in
                          January 1998,2 and has remained on the list each year since, with
                          slight variations in wording. Although this regulatory approach –
                          which incorporates risk analysis into regulatory decisions so that
                          NRC and licensee attention and activities can be focused on
                          areas of highest risk – is expected to continue evolving in the
                          years ahead, the approach is now mature and reflected
                          throughout the agency’s regulatory framework. Therefore, the IG
                          removed the challenge from the 2009 list and, instead, addresses
                          the issue in narrative about the other challenges, as appropriate.




2
 See footnote 1 for a description of management challenges lists developed in response to
congressional requests prior to the Reports Consolidation Act of 2000.


                                                    3
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




                           [Page intentionally left blank.]




                                          4
           Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




    CHALLENGE 1
    Protection of nuclear material used for civilian purposes.

                 NRC is authorized to grant licenses for the possession and use of
                 radioactive materials and establish regulations to govern the
                 possession and use of those materials.

                 NRC’s regulations require that certain material licensees have
                 extensive material control and accounting (MC&A) programs as a
                 condition of their licenses. All other material licensees (including
                 those requesting authorization to possess small quantities of
                 special nuclear materials) must develop and implement plans that
                 demonstrate a commitment to accurately control and account for
                 radioactive materials.

                 NRC may relinquish its authority to regulate certain radioactive
                 materials and limited quantities of special nuclear material to
                 States. After these States demonstrate that their regulatory
                 programs are adequate to protect public health and safety and are
                 compatible with NRC’s program, the States enter into an
                 agreement assuming this regulatory authority from NRC and are
                 called Agreement States.

                 The issues facing NRC and the agency’s actions to address each
                 issue include the following:

                 Issue: Implement the National Source Tracking System (NSTS),
                 Web-Based Licensing,3 and the Licensing Verification System4 to
                 ensure the accurate tracking and control of byproduct material,
                 especially those materials with the greatest potential to impact
                 public health and safety.

                           Action: NSTS became operational early in 2009.
                           Furthermore, the agency is working to meet its goal of
                           getting Web Based Licensing on line by late 2009 or early
                           2010. NRC continues to work on the development of the
                           Licensing Verification System.

                 Issue: Ensure that radioactive material is adequately protected to
                 preclude its use for malicious purposes.


3
  A Web-Based Licensing system is intended to serve as a repository for nationwide license
information from both NRC and Agreement States.
4
  A License Verification System is planned to interface with NSTS and the Web-Based Licensing
system to provide secure, online verification of license and inventory information.


                                                     5
          Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                          Action: NRC staff recently proposed a final rulemaking to
                          amend its regulations to expand the current NSTS to include
                          Category 3 materials. 5 The staff in its proposal concluded
                          that improving the accountability of certain lower level
                          sources could reduce the possibility of these sources being
                          aggregated to higher activity levels for potential malevolent
                          use. In June 2009, the Commission was unable to reach a
                          majority decision on the staff proposal to expand NSTS to
                          include additional specific licensees that possess sealed
                          sources containing Category 3 threshold quantities of
                          radioactive material. Therefore, the proposed action was not
                          approved.

                Issue: Ensure adequate inspections to verify licensees’
                commitments to their MC&A programs.

                          Action: NRC is enhancing its inspection programs.
                          Currently, in response to an OIG audit,6 NRC is working on
                          documenting how risk insights were applied to its reactor
                          MC&A program to determine what types and quantities of
                          materials must be inspected and the frequency of those
                          inspections. Fuel cycle facility MC&A inspections have
                          become a shared responsibility between the Office of
                          Nuclear Material Safety and Safeguards and Region II. The
                          agency is training staff to ensure that there are two MC&A
                          inspectors in headquarters and two in Region II.

                Issue: Ensure reliable accounting of special nuclear materials in
                the NRC and Department of Energy’s jointly managed Nuclear
                Materials Management and Safeguards System (NMMSS).

                          Action: NRC has been working since 2003 to resolve
                          MC&A issues in response to OIG-03-A15, Audit of NRC’s
                          Regulatory Oversight of Special Nuclear Materials. On
                          February 7, 2008, NRC approved a final rule that amended
                          its regulations in Title 10, Code of Federal Regulations (10
                          CFR), Parts 40, 72, 73, 74, and 150, to improve the
                          accuracy of material inventory information maintained in
                          NMMSS. The amendments, effective January 1, 2009,
                          lower the threshold of reportable quantities of special nuclear
                          material and certain source materials to NMMSS, modify the

5
  Consistent with guidelines established by the International Atomic Energy Agency, NRC
categorizes nuclear materials into five groups based on radioactivity level. Category 1 materials
pose the greatest potential for radiological consequences and Category 5 the least.
6
  OIG-03-A-15, Audit of NRC’s Regulatory Oversight of Special Nuclear Materials (March 23,
2003).


                                                    6
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                types and timing of submittals to NMMSS, and require
                licensees to reconcile any material inventory discrepancies
                that NRC identifies in the NMMSS database. NRC
                anticipates that these changes to NMMSS reporting
                requirements will improve the accuracy of material balance
                (inputs/outputs) information.

      Issue: Ensure that Agreement State programs are adequate to
      protect public health and safety and the environment and are
      compatible with NRC’s program.

                Action: NRC conducts about eight reviews per year of
                Agreement State radiation control programs under NRC’s
                Integrated Materials Performance Evaluation Program using
                performance indicators to ensure that public health and
                safety is being adequately protected and that Agreement
                State programs are compatible with NRC’s program. NRC
                plans to perform a self-assessment of its evaluation program
                by July 2010.




                                          7
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




                       [Page intentionally left blank.]




                                          8
       Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




CHALLENGE 2
Managing information to balance security with openness and
accountability.

             NRC employees create and work with a significant amount of
             sensitive information that needs to be protected. Such information
             includes sensitive unclassified information and classified national
             security information contained in written documents and various
             electronic databases.

             In addressing continuing terrorist activity worldwide, NRC
             continually reexamines its information management policies and
             procedures. NRC faces the challenge of attempting to balance the
             need to protect sensitive information from inappropriate disclosure
             with the agency’s goal of openness in its regulatory processes.
             Over the past year, NRC has made various efforts to improve
             public access to information while protecting sensitive information,
             including security-related information, from inappropriate
             disclosure.

             The issues facing NRC and the agency’s actions to address each
             issue include the following:

             Issue: Be responsive to the numerous information requests from
             State and local governments, as well as the public, to ensure
             openness and accountability within the resource constraints of the
             agency.

                       Action: The staff have conducted a number of stakeholder
                       outreach efforts to include public meetings on specific
                       regulatory issues and with elected officials regarding issues
                       at facilities within their jurisdiction.

             Issue: Manage information in accordance with new Federal
             Government policies for designating, marking, safeguarding, and
             disseminating controlled unclassified information (CUI).

                       Action: In May 2008, the White House issued a Presidential
                       Memorandum conveying requirements for the designation
                       and sharing of controlled unclassified information. The
                       memorandum also established a framework for designating,
                       marking, safeguarding, and disseminating terrorism-related
                       CUI that originates in departments and agencies. Under the
                       CUI framework, all CUI will be categorized into one of three
                       combinations of safeguarding procedures and dissemination


                                                 9
          Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                          controls, which will be indicated through one of three
                          identified markings: (1) Controlled, Standard; (2) Controlled,
                          Specified; and (3) Controlled Enhanced, Specified.

                          The CUI framework was created to standardize “Sensitive
                          But Unclassified” practices and thereby improve information
                          sharing. NRC has until 2013 to implement new CUI policies
                          and procedures. Safeguards Information7 is exempt from
                          the new regulations; therefore, NRC will continue to manage
                          Safeguards Information according to current policies.


                Issue: Ensure that sensitive information is handled in accordance
                with agency policies and procedures for public disclosure.

                          Action: NRC recognized weaknesses in contracts
                          regarding personal information such as social security
                          numbers and dates of birth, and implemented the use of a
                          contract clause for protecting personal information that may
                          be provided, collected, used, possessed, or processed in the
                          course of performing work under an NRC contract.

                          Action: NRC implemented new Freedom of Information Act
                          (FOIA) procedures based on guidelines issued in January
                          2009. In a memorandum to heads of executive departments
                          and agencies, the Attorney General instructed Government
                          workers to apply "a presumption of disclosure" when
                          handling FOIA requests. According to the new guidelines,
                          agencies also need to take affirmative steps to make
                          information public and not wait for specific requests from the
                          public.

                          Action: In April 2009, NRC issued Management Directive
                          3.17, NRC Information Quality Program, to implement the
                          NRC Information Quality Program, and thereby ensure the
                          quality of information it relies on for decisionmaking or




7
  Safeguards Information is a special category of sensitive unclassified information authorized by
Section 147 of the Atomic Energy Act of 1954, as amended, to be protected. Although
Safeguards Information is sensitive unclassified information, it is protected similar to Government
classified confidential information and significantly more than other sensitive unclassified
information. Disclosure of Safeguards Information could reasonably be expected to have a
significant adverse effect on the health and safety of the public and/or the common defense and
security by significantly increasing the likelihood of theft, diversion, or sabotage of materials or
facilities subject to NRC jurisdiction.


                                                    10
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                disseminates to the public. The directive includes guidance
                on how to make an information correction request and a
                description of the NRC process for processing Information
                Correction Requests and appeals.

                NRC also revised Management Directive 3.4, Release of
                Information to the Public, to reflect current guidance on the
                timing of release of documents to the public, add
                consolidated guidance on the withdrawal of documents from
                the Agencywide Documents Access and Management
                System Public Library, and reflect the agency’s revised
                policy on protection and disclosure of information. As part of
                the revision, NRC separated from the Directive and placed
                on NRC’s internal Web site specific guidance for staff
                concerning which documents should routinely be released to
                the public. Placement of this guidance on the Web is
                intended to allow for frequent updating by all offices and
                regions.

      Issue: Provide external stakeholders with clear and accurate
      information about regulatory programs and facilitate public
      participation in the regulatory process.

                Action: The staff solicited public input concerning how NRC
                could increase public access to security information (e.g.,
                security inspection reports) and held four public meeting
                around the country to acquire opinions. This information
                was considered by the NRC staff in preparing SECY-08-
                0185, Options for Security Openness, Transparency, and
                Reactor Oversight Process Improvements, which was
                presented to the Commission in late 2008. The Commission
                reviewed the three options presented in SECY-08-0185, two
                of which would have made more security information
                available to the public, and considered the staff’s
                recommendation for one of those two options. The
                Commission was unable to reach a majority decision on the
                staff’s recommendation; therefore, the proposed action was
                not approved.

      Issue: Review and strengthen programs to protect licensee,
      vendor, and Government-owned assets (e.g., facility designs,
      technology descriptions, dual use material and components,
      classified information) from compromise by foreign sources and
      industrial espionage and increase awareness of the relationship of
      these assets to the Nation’s economic and industrial base and
      energy infrastructure.


                                          11
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                Action: NRC has recognized the need to ensure
                technological data involving licensee, vendor, and
                Government-owned assets is fully protected against
                potential loss to adversaries. NRC has promulgated orders
                that provide additional security measures for the protection
                of these assets.

                NRC employees and contractors are required to have a
                baseline level of security awareness upon entry on duty and
                the receipt of a security clearance. Others, depending on
                their job and involvement in the creation and use of
                protected information, are provided various "role based"
                training programs, such as classifier's training, training for
                administrative personnel, declassification training, Secret
                Internet Protocol Router Network users training, and
                Sensitive Compartmented Information Access training. The
                training is layered, targeted, and recurring for those who
                have specific responsibilities for various types of protected
                information.

                In addition, NRC has increased its information security
                awareness through the issuance of a variety of agencywide
                announcements informing staff of the methods employed by
                those targeting NRC information systems and the
                corresponding need for employees to heighten their
                computer security information protection posture.




                                          12
         Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




CHALLENGE 3
Ability to modify regulatory processes to meet a changing environment, to
include the licensing of new nuclear facilities.

               NRC faces the challenge of maintaining its core regulatory
               programs while adapting to changes in its regulatory environment.
               NRC must address a growing interest in licensing and constructing
               new nuclear power plants to meet the Nation’s increasing demands
               for energy production. As of June 2009, NRC had received 18
               Combined Operating License (COL) applications. NRC expects to
               receive an additional five COL applications through FY 2011.

               While responding to the emerging demands associated with
               licensing and regulating new reactors, NRC must maintain focus
               and effectively carry out its current regulatory responsibilities, such
               as inspections of the current fleet of operating nuclear reactors and
               fuel cycle facilities. NRC intends to increase its safety focus on
               licensing and oversight activities through risk-informed and
               performance-based regulation.8

               The challenges facing NRC and the agency’s actions to address
               each challenge include the following:

               New Facilities

               Issue: Implement the new Construction Inspection Program (CIP).
               This includes (1) risk-informing CIP activities to ensure the safe
               operation of newly constructed nuclear facilities and (2) ensuring
               that the NRC staff has the necessary knowledge and skill to
               successfully implement the CIP.

                         Action: The Office of New Reactors has developed the new
                         CIP in accordance with 10 CFR Part 52. The newly
                         developed inspections, tests, analyses, and acceptance
                         criteria (ITAAC) have been integrated into the Part 52
                         licensing process to create a design-specific, pre-approved
                         set of performance standards that the licensee must meet
                         and that the Commission must find have been met, before
                         the licensee can load fuel and operate the plant.




8
  Risk-informed performance-based regulation incorporates risk analysis into regulatory
decisions. This approach is intended to improve the regulatory process by focusing both NRC
licensee attention and activities on the areas of highest risk.


                                                   13
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                Additionally, the agency has issued and revised a number of
                Inspection Manual Chapters and procedures to implement
                the new ITAAC process.

                NRC has revised Inspection Manual Chapter 1252,
                Construction Inspector Training and Qualification Program,
                to ensure that the agency is effectively preparing inspectors
                to implement the new CIP. The agency will monitor the
                effectiveness of the training program as inspections of the
                new construction projects begin.

      Issue: As the public’s demand for new energy sources continues,
      NRC must ensure that the process for reviewing applications for
      new facilities focuses on safety and effectiveness.

                Action: NRC’s preparations have been focused on issuing
                reactor design certifications, revising the regulation that
                governs early site permits, and engaging in ongoing
                interactions with nuclear plant designers and utilities
                regarding prospective new reactor applications and licensing
                activities. In April 2009, the Office of New Reactors
                developed a set of goals with the purpose of enhancing the
                agency’s ability to plan and implement its reviews more
                effectively in a dynamic environment resulting from changes
                in the applicants' business strategies.

                NRC is taking a "design-centered review approach" to
                optimize the COL application review process. Part of the
                license review process includes conducting performance-
                based vendor inspections and quality assurance/quality
                control audits.

      Existing Fleet

      Issue: NRC’s license renewal and power uprate review processes
      must effectively focus on an applicant’s ability to ensure the
      continued safe operation of the plant.

                Action: For planning purposes, NRC continues to work with
                plant licensees to develop a schedule of anticipated requests
                for license renewals and power uprates. The agency has
                also implemented a number of recommendations to improve
                the license renewal review and power uprate processes to
                include closer management oversight. For license renewal
                reviews, the agency has updated report-writing guidance to
                include management expectations and report-writing


                                          14
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                standards. For power uprate reviews, the agency has
                developed a training module for technical reviewers and
                project managers that is specifically focused on writing or
                contributing to a safety evaluation.

      Issue: Respond to a heightened public focus on license renewals
      resulting in contested hearings.

                Action: NRC has open dialogs with the industry, licensees,
                and stakeholders, and appropriate comments have been
                incorporated into new inspection procedures. Additionally,
                the license renewal process allows stakeholders to request a
                hearing in order to present their concerns.

      Issue: Ensure the ability to identify emerging operating and safety
      issues at all plants including issues associated with license renewal
      and power uprate; consistently apply regulatory and review
      changes in response to these emerging issues across the existing
      fleet of reactors.

                Action: NRC continues to make changes to its regulatory
                programs based on emerging operational and safety issues
                related to license renewal and power uprate. For example,
                as a result of identified weaknesses in the power uprate
                program, Inspection Procedure 71004 was revised to
                provide additional guidance on inspection planning,
                implementation, and documentation. Annually, agency staff
                communicate the status of the license renewal and power
                uprate programs to the Commission.

      Issue: Establish and maintain effective, stable, and predictable
      regulatory programs or policies for all programs.

                Action: NRC continues to interface with stakeholders,
                develop regulatory policy, update rules and technical
                guidance, provide technical leadership and management for
                the Reactor Oversight Process (ROP), and support the
                development of programmatic changes when needed.
                Additionally, the ROP features an annual assessment
                process which is used to revise the process as necessary.




                                          15
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




                       [Page intentionally left blank.]




                                          16
           Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




    CHALLENGE 4
    Oversight of radiological waste.

                 NRC regulates spent nuclear fuel generated from commercial
                 nuclear power reactors, which is referred to as high-level
                 radioactive waste. NRC faces significant issues involving the
                 potential licensing of the proposed Yucca Mountain repository for
                 storing high-level radioactive waste. Additional challenges in the
                 high-level waste area include the interim storage of spent nuclear
                 fuel, certification of storage and transportation casks, and the
                 oversight of decommissioned reactors and other nuclear sites.

                 Additionally, the amount of low-level waste continues to grow;
                 however, no new disposal facilities have been built since the 1980s
                 and unresolved issues will multiply as the once-operational disposal
                 facilities shut down.

                 The challenges facing NRC and the agency’s actions to address
                 each challenge include the following:

                 Issue: Address increasing quantities of radiological waste
                 requiring interim or permanent disposal sites.

                           Action: NRC developed and implemented a risk-informed
                           decisionmaking framework in connection with a wide range
                           of nuclear waste storage issues. The NRC has conducted
                           reviews using the framework for dry cask storage systems
                           and concluded that such systems provide a safe means to
                           store spent nuclear fuel with exceedingly low risk. NRC has
                           met with Agreement States and industry to discuss guidance
                           on interim storage of Class B/C waste.9 Stakeholder
                           outreach is an integral part of NRC’s low level waste
                           strategic assessment.

                 Issue: Address issues regarding the license application to
                 construct a high-level radioactive waste repository at Yucca
                 Mountain.

                           Action: The NRC is continuing to review the Yucca
                           Mountain license application submitted by the Department of
                           Energy in June 2008, and is conducting high-level waste
                           licensing activities to ensure public health and safety and
                           protection of the environment. Due to the unprecedented
9
 Classes A, B, and C radioactive waste present increasing levels of risk of disposal, with Class C
waste posing the greatest risk.


                                                     17
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                number of contentions filed, the Department of Energy’s
                decision not to submit the required Environmental Impact
                Statement, and the staff’s limited resources, the agency has
                stated that the review proceedings will not meet the 10 CFR
                Part 2, Appendix D schedule. In 2009, NRC issued the final
                requirements in 10 CFR Part 63 to align agency regulations
                to new Environmental Protection Agency standards for
                radiation protection at a high-level waste repository.

      Issue: Oversight of low-level waste disposal, including low-level
      radioactive waste disposal sites.

                Action: NRC modified Inspection Procedure 84900 to
                address long-term storage of Class B and C waste. As
                recommended in the Low-Level Waste Strategic
                Assessment, NRC issued Regulatory Issue Summary 2008-
                32, which consolidated previous NRC low-level waste
                guidance and communicated to licensees that the NRC's
                staff position continues to be that low-level waste storage
                must meet NRC requirements and that when constructing
                new low-level waste storage facilities the regulations for
                evaluating proposed changes to facilities must be met.

      Issue: Oversight of nuclear waste issues associated with the
      decommissioning and cleanup of nuclear reactor sites and other
      facilities.

                Action: NRC continues to hold public meetings with
                stakeholders and licensees to explore safe and secure
                storage options associated with decommissioning of plants,
                such as transitioning from spent pool storage to dry cask
                storage. NRC continues to oversee the 14 power reactors
                currently undergoing decommissioning. NRC staff published
                NUREG-1307, Report on Waste Burial Charges, which
                provides updated low-level waste disposal costs for
                reference pressurized water reactor and boiling water
                reactor based on estimated disposal volumes.




                                          18
      Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




CHALLENGE 5
Implementation of information technology and information security
measures.

            NRC needs to continue upgrading and modernizing its information
            technology (IT) and security capabilities both for employees and for
            public access to the regulatory process. Recognizing the need to
            modernize, the Office of Information Services established goals to
            improve the productivity, efficiency, and effectiveness of agency
            programs and operations, and enhance the use of information for
            all users inside and outside the agency. NRC also needs to ensure
            that system security controls are in place to protect the agency’s
            information systems against misuse.

            The issues related to this challenge and the agency’s actions to
            address each issue include the following:

            Issue: Upgrade and manage IT activities to improve the
            productivity, efficiency, and effectiveness of agency programs and
            operations.

                      Action: A specialized team reporting to the Director of the
                      Office of Information Services Infrastructure and Computer
                      Operations Division was established. This team is
                      responsible for planning and coordination activities to ensure
                      the agency’s IT infrastructure is sufficient to support growth
                      and program needs.

                      Action: In the second quarter of FY 2009, the Office of
                      Information Services hosted a 1-day IT summit for NRC
                      offices and regions to engage in discussions with offices and
                      regions to provide a better understanding of the agency’s IT
                      program, raise an appreciation for the necessary and crucial
                      planning needed to properly execute technology projects,
                      whether they are led from a program office or the Office of
                      Information Services, and to verify the current plans and
                      directions for technology modernization across the agency.
                      A variety of presentations enhanced understanding and
                      encouraged discussion of IT project interrelationships and
                      explained the need for a clear, agreed-upon strategy and
                      path forward on all agency IT projects.

                      Action: An aggressive implementation schedule was
                      developed to upgrade the existing IT environment and to
                      bring new technologies to NRC. Some of the projects under


                                                19
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                development include strategies, methods, and tools used to
                capture, manage, store, preserve, and deliver content and
                documents related to organizational processes.

      Issue: Provide laptop computers with enhanced functionality,
      security, and support.

                Action: An agency laptop standard and security policy was
                developed and published on the NRC intranet and
                distributed via an announcement. The Customer Support
                Center offers encrypted thumb drives as well as a laptop
                loaner program. Standard policies for the use of commercial
                wireless devices, services, and technologies have also been
                implemented. The IT infrastructure was expanded to
                support 1,000 Blackberry devices.

      Issue: Ensure that information systems and assets are protected.

                Action: The Computer Security Office has taken action on
                identified vulnerabilities. Such actions include (1) certifying
                and accrediting 89 percent of the agency’s systems that are
                reported to the Office of Management and Budget under the
                agency’s Federal Information Security Management System,
                (2) initiating a continuous monitoring system to evaluate IT
                security controls of agency IT systems to provide assurance
                that systems remain secure after having been authorized to
                operate, and (3) publishing IT security policy to address
                current agency needs to include encryption of data at rest,
                encryption of data in transmission, and use of thumb drives.

                Action: The agency is providing a secure network for
                authorized users to access safeguards information
                documents electronically. This system will cut down on the
                need to print documents and will enable the management
                and collaboration of safeguards documents in a centralized
                electronic document management system.

      Issue: Ensure that plans for a cyber security inspection program
      are developed and implemented.

                Action: The staff plans to develop an inspection procedure
                for conducting cyber security inspections at nuclear power
                plants and hold training for NRC cyber security inspectors.
                The inspections are planned to be conducted between
                calendar year 2012 and 2016.



                                          20
      Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




CHALLENGE 6
Administration of all aspects of financial management.

            NRC management is responsible for establishing and maintaining
            effective internal controls and financial management systems that
            meet the objectives of several statutes including the Federal
            Managers’ Financial Integrity Act. This act mandates that NRC
            establish controls that reasonably ensure that (1) obligations and
            costs comply with applicable law; (2) assets are safeguarded
            against waste, loss, unauthorized use, or misappropriation; and
            (3) revenues and expenditures are properly recorded and
            accounted for. This act encompasses program operational, and
            administrative areas, as well as accounting and financial
            management.

            In addition, NRC’s management of its expanded grant program
            must be conducted in accordance with Federal regulations, which
            includes ensuring that funds are distributed and used as intended.

            The issues related to this challenge and the agency’s actions to
            address each issue include the following:

            Issue: Replace the agency’s current financial systems, which are
            obsolete, overly complex, and inefficient.

                      Action: On May 8, 2009, the Chief Financial Officer
                      announced that the agency had selected Momentum
                      Financials as the software for the Financial Accounting and
                      Integrated Management Information System (FAIMIS)
                      implementation project. In June 2009, the agency began the
                      configuration and integration phase of the project. The
                      planned “go-live” date is October 1, 2010. To ensure that
                      FAIMIS performs as intended, the agency will conduct final
                      user acceptance testing and end-to-end testing in parallel
                      with the NRC legacy systems during the 6 months prior to
                      the October “go-live” date.

                      Action: On July 20, 2009, NRC implemented e-Travel, a
                      governmentwide initiative to improve travel operations and
                      management. The paperless system automates travel
                      documentation and approval, funds certification, and booking
                      of travel reservations. Currently, e-Travel includes local and
                      temporary duty travel. The agency plans to implement
                      specialized travel, such as foreign and premium class travel,
                      by December 2010.


                                                21
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                Action: NRC plans to implement an upgrade to the Time
                and Labor System (T&L) during the second quarter of
                FY 2010. The upgrade will provide a modern, Web-enabled
                version of the existing PeopleSoft T&L software. The
                system will also provide the capability for electronic workflow
                and approval of employee timesheets.

      Issue: Respond to Commission direction and implement
      recommendations of the Advisory Group on Budget Formulation
      and Financial Plan Reporting (Advisory Group). This issue
      encompasses both budget formulation and budget execution.

                Action: In response to direction from the Commission to
                improve the agency’s budget formulation process, the
                agency has undertaken efforts to implement a more top-
                down, programmatic-based budget process. Improvements
                include an update of the budget structure, which is being
                implemented in a two-phased approach. The agency is
                identifying product lines and specific products for each
                product line during formulation of the FY 2011 and 2012
                budgets, respectively. The ultimate goal of the budget
                structure is to integrate budget formulation, execution, and
                performance information to support the assessment of the
                efficiency and effectiveness of agency programs, products,
                and activities.

                Action: Based on the Advisory Group’s reviews and initial
                recommendations, the Office of the Chief Financial Officer
                (OCFO) and the Office of the Executive Director for
                Operations (OEDO) made a number of improvements to the
                FY 2009 budget execution process. These improvements
                include the CFO/EDO periodic budget briefings, an earlier
                mid-year review exercise, increased focus on identifying and
                processing deobligations, quarterly Advanced Procurement
                Plan updates, and the use of IT to enhance communication
                and efficiency. A recent Advisory Group report and
                Commission direction included recommendations for
                additional improvements to the budget execution process. In
                general, the level of process maturity for budget execution
                lags behind that of budget formulation by a few years.
                Additional challenges in this area may result from possible
                future Continuing Resolutions, which can impact the timing
                of receipt of future appropriations.

      Issue: Manage the agency’s expanded grant program to ensure
      funds are efficiently and effectively distributed and used as
      intended.

                                          22
         Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




                         Action: In response to legislative and congressional
                         direction over the past several years, NRC has initiated and
                         implemented a new education grant program. In FY 2007,
                         NRC was authorized to distribute $5M in education grants,
                         and for both FY 2008 and 2009, this figure increased to $20
                         million. Prior to FY 2007, NRC’s financial assistance
                         program was much smaller; for example, NRC provided
                         about $1.5 million in assistance during FY 2006, and
                         $564,000 in FY 2005. To implement its expanded grant
                         program, NRC has hired several grant experts from other
                         Federal agencies and is working to establish and document
                         a process for announcing grants, reviewing applications, and
                         administering these types of grants. NRC also is conducting
                         a Lean Six Sigma10 review of the agency’s process for
                         awarding grants to reduce the overall time for processing
                         grants. Another Lean Six Sigma goal is to implement a
                         formal, electronic tracking and reporting system that
                         minimizes data inconsistencies.

                         In addition to the issues noted above, the agency has taken
                         several steps to meet the challenge of administering all
                         aspects of financial management. Those steps include
                         completing the requirements to receive a certification and
                         accreditation over the License Fee Billing System, instituting
                         a new process to estimate the accounts payable balance,
                         evaluating the expansion of the cross-servicing effort to
                         other NRC financial activities, and streamlining the financial
                         reports preparation process for account reconciliation and
                         financial statement generation.




10
   Lean Six Sigma is a methodology for improving business processes that combines the
strategies and tools from two other business process improvement methodologies
focused on (1) reducing process time and resources by eliminating unnecessary delays
and steps, and (2) identifying and reducing specific sources of process variation.
Combining these two complimentary methodologies, in conjunction with a successful
implementation, is thought to result in a process that is faster, takes less resources, is
more consistent, and, therefore, more predictable.


                                                   23
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




                       [Page intentionally left blank.]




                                          24
      Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




CHALLENGE 7
Managing human capital.

            NRC’s human capital needs are changing due to the receipt of
            applications to construct and operate the next generation of nuclear
            reactors and to increase the number of fuel cycle facilities. To
            effectively manage human capital as these changes progress, while
            continuing to accomplish the agency's mission, NRC must continue
            to implement the following initiatives:

                Timely personnel security adjudication.
                Space planning.
                Recruitment, training, and knowledge management.
                Optimal use of resources.

            The issues related to this challenge and the agency’s actions to
            address each issue include the following:

            Issue: Timely personnel security adjudication. Work start dates for
            NRC employees, contractors, and licensees are frequently delayed
            for months at a time due to the time-consuming personnel security
            adjudication process currently in place for granting access
            authorization.

                      Action: The agency is reviewing its hiring process for
                      external applicants, which includes the entire hiring and
                      security process that occurs from identification of an active
                      vacancy through the entrance on duty date, and plans to
                      develop recommendations to expedite the process during
                      FY 2010.

                      Action: In accordance with Executive Order 13467,
                      Reforming Processes Related to Suitability for Government
                      Employment, Fitness for Contractor Employees, and
                      Eligibility for Access to Classified National Security
                      Information dated June 30, 2008, NRC has developed
                      reciprocity processes and procedures to accept applicable
                      investigations and adjudications conducted by other Federal
                      agencies.

                      Action: The HR Recruitment Activity Tracking System was
                      modified to include security processing and adjudication
                      status information. Reports from this system are shared with
                      the program offices to keep managers informed of the status
                      of their new hires.


                                                25
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



      Issue: Space planning. NRC must continue to accomplish the
      agency's mission and communicate effectively with staff located in
      multiple office locations.

                Action: NRC is implementing a Headquarters Strategic
                Housing Plan designed to meet space needs through
                FY 2013. The agency expects to begin consolidating staff
                by occupying a new permanent building in close proximity to
                the White Flint Complex in FY 2012. Furthermore, most
                NRC regional offices are seeking new office space to
                accommodate additional staff in order to meet increased
                workload demands.

                Action: To ensure the agency maintains its sense of one
                community while employees are in multiple locations, a
                Staying Connected Working Group that includes
                representatives from various NRC Offices has been meeting
                regularly since 2008. Its role is to confirm that employees in
                interim buildings are receiving the services they need to
                perform their work and maintain workplace satisfaction.
                Among other accomplishments, the working group has
                facilitated onsite demonstrations of virtual meeting service
                for employees in interim buildings and arranged to increase
                shuttle service among headquarters buildings. The group
                also is looking at the uses of videoconferencing and other
                electronic methods to facilitate connectivity, and it is
                developing a “Staying Connected” Web page.

                Action: On January 1, 2009, Region III acquired an
                additional 11,028 square feet of leased office space to
                consolidate offices and improve the readiness and
                capabilities by further enhancing the integration of safety and
                security with key emergency and communications systems.

      Issue: Recruitment, training, and knowledge management. NRC
      must continue to address anticipated increased workload demands
      and retirements.

                Action: NRC is refining the agency’s human capital
                program through the following initiatives: (1) streamlining
                and enhancing the hiring process through use of emerging
                technologies such as the centralized hiring tools available
                through the USAJobs.Gov Web site and implementation of
                Lean Six Sigma process change recommendations; (2)
                refining work life programs intended to improve employee
                satisfaction and wellness; (3) implementing a Leaders


                                          26
           Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                           Academy that provides contemporary management and
                           leadership training and continued development to current,
                           future and potential NRC leaders; and (4) using advanced
                           training methods to improve skills, target individual learning
                           styles, reduce travel, and reduce time to competency.

                           Action: NRC is implementing knowledge management
                           strategies11 that include mentoring, early replacement hiring,
                           and rehiring annuitants with or without use of a pension
                           offset as applicable.12 The agency also has developed a
                           knowledge management Web site, expressly for the purpose
                           of retaining knowledge before key employees are promoted
                           or retire.

                           Action: In response to legislative and congressional
                           direction, NRC recently implemented a $20-million per year
                           education grant program to support and develop the
                           educational infrastructure necessary to allow the Nation to
                           safely move its nuclear energy initiatives forward. Funds are
                           used to support courses and curricula relevant to careers in
                           the nuclear field and to provide scholarships, fellowships,
                           and faculty development to benefit the nuclear sector. While
                           these grants are expected ultimately to benefit the entire
                           nuclear profession by increasing the pool of competent,
                           qualified workers to work in the nuclear field, NRC also
                           benefits from an increased applicant pool from which to
                           draw.

                 Issue: Optimize utilization of resources to address the change in
                 agency workload resulting from various states becoming
                 Agreement States.

                           Action: Regional and program offices are working
                           cooperatively within the budget process to assure resources
                           are allocated to address changing workloads. The agency
                           has also been evaluating the impacts on projected workload
                           over the next several years.




11
   Knowledge management involves capturing critical information and making the right
information available to the right people at the right time to assure that knowledge and experience
of the current staff is passed on to the next generation of NRC staff.
12
  This flexibility allows NRC to rehire a retiree to fill a position at full pay if the agency has
experienced difficulty in filling a position, or if a temporary emergency exists.


                                                     27
      Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




IV.   CONCLUSION

            The seven challenges contained in this report are distinct, yet are
            interdependent to accomplishing NRC’s mission. For example, the
            challenge of managing human capital affects all other management
            and performance challenges.

            The agency’s continued progress in taking actions to address the
            challenges presented should facilitate achieving the agency’s
            mission and goals.




                                                28
    Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                                                                                            Appendix
SCOPE AND METHODOLOGY

          This evaluation focused on the IG’s annual assessment of the most
          serious management and performance challenges facing the NRC.
          The challenges represent critical areas or difficult tasks that warrant
          high level management attention. To accomplish this work, the
          OIG focused on determining (1) current challenges, (2) the
          agency’s efforts to address the challenges during FY 2009, and
          (3) future agency efforts to address the challenges.

          OIG reviewed and analyzed pertinent laws and authoritative
          guidance, agency documents, and OIG reports, and sought input
          from NRC officials concerning agency accomplishments relative to
          the challenge areas and suggestions they had for updating the
          challenges. Specifically, because challenges affect mission critical
          areas or programs that have the potential to impact agency
          operations or strategic goals, NRC Commission members, offices
          that report to the Commission, the Executive Director for
          Operations, and the Chief Financial Officer were afforded the
          opportunity to share any information and insights on this subject.

          OIG conducted this evaluation from June through August 2009.
          The major contributors to this report were Anthony Lipuma, Deputy
          Assistant Inspector General for Audits; Steven Zane, Team Leader;
          Beth Serepca, Team Leader; Sherri Miotla, Team Leader; and
          Judy Gordon, Quality Assurance Manager.




                                              29
